HHS/OIG, Audit -"Audit of the Medicaid Drug Rebate Program in Montana,"(A-07-03-04020)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Audit of the Medicaid Drug Rebate Program in Montana," (A-07-03-04020)
December 12, 2003
Complete
Text of Report is available in PDF format (517 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to evaluate whether the Montana Department of Public Health and Human
Services (Department) had established adequate accountability and internal controls over the Medicaid drug rebate program.  We
determined that the Department had adequate controls over the collections of drug rebates from the manufacturers.  However,
the Department did not have adequate controls to account for receivables as required by Federal regulations.  Drug
rebate receivables were perpetually understated and it was likely that the Department did not receive all rebate payments
due from manufacturers.  Moreover, the lack of sufficient internal controls increased the risk for fraud, waste, or
abuse of drug rebate program funds.